<html>
<title> - HOLDING HONDURAS HOSTAGE: REVOKED VISAS AND U.S. POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                       HOLDING HONDURAS HOSTAGE: 
                     REVOKED VISAS AND U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2011

                               __________

                           Serial No. 112-55

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-899PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Roberto Micheletti Bain (via video conference), 
  former President of Honduras...................................     8
The Honorable Cresencio S. Arcos, Jr., senior political advisor, 
  National Defense University's Center for Hemispheric Defense 
  Studies (former U.S. Ambassador to Honduras)...................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Roberto Micheletti Bain: Prepared statement........    11
The Honorable Cresencio S. Arcos, Jr.: Prepared statement........    18

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere:
  Prepared statement.............................................    35
  Material submitted for the record..............................    37
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey: Material submitted for the record.....    46

 
        HOLDING HONDURAS HOSTAGE: REVOKED VISAS AND U.S. POLICY

                              ----------                              


                         TUESDAY, JUNE 14, 2011

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Connie Mack 
(chairman of the subcommittee) presiding.
    Mr. Mack. The subcommittee will come to order.
    I first want to thank everyone, especially our witnesses, 
for joining us here today.
    After recognizing myself and the ranking member, Mr. Engel, 
for 5 minutes each for our opening statements, we will then 
proceed directly to testimony from our distinguished witnesses. 
The full text of their written testimony will be inserted into 
the record. Without objection, members have 5 days to submit 
statements and questions for the record.
    After we hear from our witnesses, individual members will 
be recognized for 5 minutes each to question our witnesses.
    As you all can tell, we have a special guest with us here 
today, the chair of the full committee of Foreign Affairs; and 
in deference to the chairman of the full committee, without 
objection, Chairman Ros-Lehtinen is recognized to make a brief 
statement at this time.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Mack. It is 
an honor and pleasure to be here at your subcommittee.
    I wanted to take just a minute to join you this afternoon 
to underscore my deep disappointment at the Obama 
administration's overall ongoing punitive policy toward the 
people of Honduras who opposed Manuel Zelaya's attacks on their 
country's Constitution and the rule of law and to express my 
grave concern that the Department of State appears to have 
actively stood in the way of having Mr. Micheletti and others 
participate in today's hearing.
    We faced similar stonewalling when the State Department 
initially refused to provide requested information to the 
Government Accountability Office in response to an 
investigation that it was carrying out at the request of 
several Members of Congress, including me.
    The GAO investigation, which will be released in the next 
few months, was to focus on the State Department's involvement 
and particularly on U.S. Ambassador Llorens' role in promoting 
a specific pro-Zelaya political outcome for Honduras.
    Also, with respect to today's hearing, it is deeply 
troubling that the Department of State would take steps to 
thwart at every turn the prerogative of Congress and this 
committee in their oversight of U.S. policy toward Honduras, 
especially as I believe this policy has undermined U.S. 
national security and foreign policy objectives.
    I want to thank Congressman Mack, the chairman of this 
subcommittee, for holding this important hearing as well as for 
his leadership on behalf of U.S. national security interests 
and vital interests in the region and also for bringing 
attention to this concerning policy of this administration.
    So I thank the gentlemen and I thank the chairman and the 
members for this opportunity.
    Mr. Mack. Thank you, Madam Chair. It is a delight to have 
you with us today, and thank you for helping us highlight the 
point that you made. It is very important.
    Before I move on, I want to obviously thank the Ambassador 
for being here with us.
    I also want to take this opportunity to thank President 
Micheletti for joining us. As you can see, he has to join us by 
video conference. Why? Because the State Department refuses to 
give him a visa to testify here in person. So the State 
Department is blocking the oversight of this committee by 
refusing to have President Micheletti join us.
    President Micheletti, thank you so much for being with us 
here today. Thank you for taking the time, and I know it wasn't 
easy. But, as you know, I consider you to be a hero in Latin 
America for standing up for freedom and democracy. So thank 
you.
    The State Department has gone to great lengths to try to 
stop this hearing from happening, whether it was refusing visas 
to people who we have asked to come and testify in front of the 
committee, or wouldn't even let President Micheletti into the 
State Department--into the Embassy in Honduras. So we had to 
find another place for him to do the video conference. I think 
that is shameful on the State Department's side. They should 
welcome the opportunity for this committee to do its oversight.
    I now recognize myself for 5 minutes.
    The real coup and the only coup that occurred in Honduras 
that the Obama administration has failed to address is the coup 
attempted by former President Zelaya with the support of Hugo 
Chavez. Zelaya attempted to change the Honduran Constitution by 
all means possible, including the use of the military.
    In May, 2009, President Zelaya, working with his friend 
Hugo Chavez, ordered a referendum to take place on November 29, 
2009, that would have removed Presidential term limits. The 
Honduran Constitution specifically prohibits this; and, thus, 
Zelaya violated Article 239 of the Honduran Constitution, which 
includes a self-executing clause of removal from office.
    Now you all know the ALBA nations. The ALBA playbook, led 
by Hugo Chavez, was followed closely. We have seen it in 
Bolivia, Nicaragua, and Ecuador. But the courageous Honduran 
people stood firmly behind their Constitution, behind the rule 
of law, and for their democracy. The intent of Zelaya, under 
Chavez's guidance, was to become President for life. I don't 
know about you, but I call that a dictator.
    On May 29, 2009, the Attorney General recommended that the 
Honduran courts hold that Zelaya's referendum was illegal and 
unconstitutional. In late June, the Supreme Court ordered the 
Honduran forces not to provide support for the referendum.
    Zelaya continued to utilize the resources of his friend 
Hugo Chavez, who printed the ballots and flew them to a 
military base in Honduras. On June 27, in opposition to the 
Supreme Court order, Zelaya led a violent mob to seize and 
distribute the ballots for the referendum. On June 28, the 
Supreme Court issued an arrest order for Zelaya and formally 
removed him as President. The brave Honduran military was also 
placed in a difficult position, forced to stand up to their 
President in order to support their Constitution.
    On June 28, the Honduran military, acting on a warrant from 
the Honduran Supreme Court, removed Zelaya from power. He was 
later put on a plane out of the country for his own protection 
as well as other security reasons.
    On June 28, President Obama issued a statement calling the 
removal of Zelaya illegal and a coup. How in the world, after 
looking at the facts, could you describe what happened in 
Honduras as a coup? At no time did the military take control of 
the country. At no time was force used to take over the 
country. And, in fact, Honduras did everything that you would 
ask from a country in Latin America to do. They stood up for 
their Constitution. They stood up for the rule of law. They 
stood up for their democracy. They fought for their freedom.
    Later, the Honduran Congress, pursuant to the Honduran 
Constitution, voted Roberto Micheletti in as President. By the 
way, Micheletti was constitutionally next in line for 
succession and assumed the Presidency on an interim basis. 
Again, the military was never in control of Honduras. President 
Micheletti never interfered with the ongoing Presidential 
campaign nor interfered with the previously planned November 
2009 Presidential election.
    On November 29, 2009, Hondurans voted in the Presidential 
election. Pepe Lobo won with 56 percent of the vote. On 
December 2, in accordance with the San Jose Accord, the 
Honduran Congress voted 111-14 to not reinstate ousted 
President Zelaya. The Supreme Court and the Attorney General 
also recommended this outcome.
    On January 27, President Micheletti stepped down from power 
in accordance with the Constitution and handed over power 
peacefully to a democratically elected President-elect Pepe 
Lobo.
    What were the U.S. responses to these actions?
    After harshly labeling the situation a coup, the State 
Department cut funding for Honduran military and law 
enforcement programs. Since then, the homicide rate in Honduras 
has become one of the highest in the world.
    So where are we today?
    Zelaya is back in the country. The Obama administration 
capitulated to Chavez's demands when accepting Honduras back 
into the OAS, a flawed and ineffective institution that has 
failed to uphold its own democratic charter; and the brave 
Honduran heroes are still being punished by this administration 
today, as witnessed by our witness having to speak to you today 
not from our subcommittee hearing room.
    In a hearing before this subcommittee on February 15, 2011, 
Assistant Secretary Valenzuela said the State Department was, 
and I quote: ``Looking into how the visas that were taken away 
will be restored.'' It has been 4 months since that statement, 
15 months since the U.S. Government recognized the new 
President of Honduras, and almost 2 years since the first visas 
were revoked.
    As Assistant Secretary Valenzuela, Ambassador Llorens, and 
the Obama administration continue a policy of meddling in 
Honduran affairs, it is time we hear from the Hondurans 
themselves. It is important that everyone understands the 
degree to which U.S. policies have negatively impacted the 
country of Honduras and the region.
    It is time for the U.S. administration to move on, 
specifically, Ambassador Llorens who, through abuse of power, 
has manipulated and intimidated the Honduran people. This is 
not the role of the U.S. diplomatic community.
    Let me just add, I hope that Ambassador Llorens is watching 
this today and I hope he feels shame for not participating in 
what should have been held up as what we would expect from 
countries in Latin America, but for trying to dictate and 
manipulate an outcome that supports an attempted coup by Zelaya 
on the country of Honduras.
    Hondurans deserve to move forward without the 
counterproductive interference from the State Department. It 
deserves to have every one of its revoked visas reinstated, to 
have a second MCC Compact, and an assistant secretary in the 
United States State Department who believes in providing the 
same kind of assistance the United States provides other free 
countries.
    In a hemisphere dangerously influenced by anti-democractic 
forces--Hugo Chavez--Honduras deserves to have the kind of ally 
that will allow it to determine its own secure and prosperous 
future.
    I want to conclude by saying this: I was in Panama a couple 
of weeks ago where I met with President Martinelli. During the 
meeting, completely unprovoked, the President of Panama 
requested our help in getting the good people of Honduras their 
visas back. This is a serious issue. This is a regional issue, 
and this is an issue that must be solved without further delay.
    I look forward to hearing from our witnesses and their 
testimony.
    I will conclude with this: When we look at foreign policy 
in Latin America, it is time that the United States stands on 
the side of our allies. It is time that we stand with those who 
defend their Constitution and the rule of law. It is time that 
we stand with the allies of Panama and Colombia and pass their 
free trade agreements. It is not a time to appease Hugo Chavez 
and the ALBA countries. We need to stand strong in support of 
our friends and allies and the actions by this President and 
the State Department are not supporting the security of this 
country.
    I now would like to recognize the ranking member, Eliot 
Engel, for his opening statement.
    Mr. Engel. Thank you very much, Mr. Chairman.
    I don't know where to begin. There is so much to say.
    First of all, I wish that we were looking forward, rather 
than backwards. I think we need to ask ourselves some important 
future-oriented questions and not focus on yesterday's news. I 
am not sure that we help Honduras and its citizens advance in 
today's society by focusing on the unfortunate events of 2009.
    I know that you feel strongly about it because when I was 
chairman, we talked a lot about it and I don't think that our 
reading of this is tremendously different. I think we all want 
to help Honduras and we all--at least I supported the elections 
in Honduras to move forward; and, frankly, I am delighted with 
the leadership that Pepe Lobo has provided for Honduras.
    I have a different feeling about the U.S. State Department. 
I don't know about the visas, but I think basically the State 
Department handled it rather well. I think that it is clear to 
me that Mr. Zelaya was illegally trying to run for another 
term, something which has been done by a lot of the despots in 
the region, like Hugo Chavez and others and I think what he was 
doing was illegal.
    However, I think the way he was removed was also illegal. I 
don't think that you rout someone out of their bed in their 
pajamas and whisk them away at gunpoint. I don't really think 
that is the right way to do it either, as well.
    So I think what the State Department had to do was walk a 
delicate line. It doesn't bother me whether it is called a coup 
or not. Frankly, the bottom line is: Where do we go from here? 
That is what I think we need to be focusing on.
    I think that Mr. Micheletti was running the country during 
a very difficult time, a difficult time for him, a difficult 
time for Honduras. I think, by and large, he had an admirable 
record.
    But I do think that we should be talking about looking 
forward. We have just witnessed being a party and we were a 
party to a stunning display of multilateral diplomacy as OAS 
members nearly unanimously agreed to welcome Honduras back into 
the OAS. I would hope that we could have a hearing at some 
point about that because I think that is something I had been 
pushing for. I thought it made no sense to not allow Honduras 
into the OAS when you have an invitation to Cuba to come in. 
You have Hugo Chavez and others in there and I thought it made 
no sense to not have Honduras there. We were able to get that 
and I think that is something that this committee needs to look 
at.
    I think it is a successful example of multilateral 
diplomacy. It emphasized cooperation over antagonism and I 
think it should be applauded and emulated. Because this goal is 
testament to the progress that can and is being made throughout 
the region, despite the despots that we have in the region.
    So I think what we should be doing today is asking the 
questions that need asking: How do we help President Lobo 
advance this country to qualify for a new Millennium Challenge 
Corporation Compact? How do we help President Obama advance his 
Central American Citizen Security Partnership and assist 
Honduras and its neighbors in the drug- and violence-ravaged 
northern triangle? How do we help Honduras address its human 
rights record and take serious steps to improve the rule of 
law?
    I think those are better things to focus on than visas that 
should or should not have been granted a couple of years ago. I 
mean, as far as I am concerned, I see no reason why Mr. 
Micheletti shouldn't be allowed in this country, but I think 
that there are more important things to concentrate on.
    So, as Honduras tackles these challenges, one way we can 
increase confidence in its adherence to the rule of law is to 
deal with the claims of American citizens whose business or 
assets were lost in Honduras due to a corrupt judicial process 
or collusion by government-owned or controlled companies. We 
raise this again. I have raised this before. Mr. Rohrabacher 
has raised it, and others have raised it. And, Mr. Chairman, 
you and I have discussed it.
    The owner of one of these companies was illegally driven 
out of business and he is sitting in the hearing room today. 
And he is an American citizen. It is the same claim that has 
been dragging on for too long, and I urge the Government of 
Honduras to resolve this dispute without delay. We cannot sit 
here and allow American citizens to be treated in such terrible 
fashion. That needs to be addressed.
    That is why I have invited Ambassador Cresencio Arcos to 
testify today. Ambassador Arcos was U.S. Ambassador to Honduras 
from 1989 to 1993. Subsequently, he served as a Deputy 
Assistant Secretary of State for Western Hemisphere Affairs and 
International Narcotics and Law Enforcement. He has also served 
as an Assistant Secretary in the Department of Homeland 
Security and is currently a senior advisor at the Center for 
Hemispheric Defense Studies at the National Defense University. 
He is the ideal person, I believe, to address the challenges 
facing Honduras in the days ahead.
    So, Mr. Chairman, to be sure, Honduras has work yet to be 
done. There are outstanding concerns about American citizens' 
business interests in Honduras. There are obvious human rights 
concerns in Honduras, including recently a rising number of 
journalists being killed.
    When I was chairman of this subcommittee, I visited 
Honduras in 2009 for the OAS General Assembly. That gathering 
occurred on the eve of a dark chapter in Honduras' history. I 
hope and I strongly believe that by asking the right questions, 
having the right discussions, and looking forward, not 
backward, we can close that chapter and help Honduras as it 
moves into the future.
    I thank you, Mr. Chairman.
    Mr. Mack. I want to thank the ranking member.
    I think we will allow the members 2 minutes for an opening 
statement.
    Mr. Rivera is recognized for 2 minutes.
    Mr. Rivera. Thank you, Mr. Chairman. Thank you for your 
indulgences. I thank the witnesses for testifying today before 
our committee.
    Like Chairman Mack and Chairman Ros-Lehtinen, I, too, am 
deeply disappointed with the State Department's actions 
regarding today's hearing and in their continued poor response 
and policy toward Honduras.
    When Assistant Secretary Arturo Valenzuela testified before 
this committee a few months ago, he stated that the State 
Department was looking into restoring the visas of Honduran 
Government officials whose visas were unjustifiably revoked for 
being leaders in fighting an unconstitutional takeover of their 
homeland. Nearly 1\1/2\ years after the democratic election of 
a new President, we still see no progress from the State 
Department on this issue, as is evident today. I believe this 
is outrageous, considering the fact that we allow terrorist 
government leaders from around the world, like Fidel Castro and 
Ahmadinejad, to come into this country, but yet not a 
democratically elected leader from Honduras.
    In addition, the suspension of assistance to Honduras 
throughout the last 2 years has been detrimental to the well-
being of the democratic Honduran Government and people, 
especially with the growing threat of drug cartels throughout 
Central America.
    Since the expulsion of Manuel Zelaya and the democratic 
Presidential election which followed, the Obama 
administration's policy toward Honduras has focused more on 
appeasing the region's leftist leaders. This was evident with 
the administration's continued lobbying for the return of 
Zelaya to Honduras, an action which Hugo Chavez and Daniel 
Ortega had long been advocating. I cannot help but ask myself 
if this administration understands what is going on in Honduras 
and the challenges facing this ally nation, especially after 
the Honduran Constitution, court, and people helped solidify 
democracy.
    We all know what Zelaya did and the amount of corruption in 
his leadership and the constitutional crisis he created with 
the Honduran people. Why would the Obama administration force 
the Honduran people, who were hurt during this crisis, to 
accept once again a Communist puppet of Chavez that the 
Honduran courts and people constitutionally removed?
    As soon as Zelaya returned a few weeks ago, he began 
inciting violence by calling for resistance. It is no secret 
that Hugo Chavez and other leftist leaders are continuing to 
move to consolidate their hold on Honduras in order to continue 
facilitating drug trade routes to the north and to continue 
supporting leftist terrorist organizations.
    I look forward to the testimony of President Micheletti and 
Ambassador Arcos.
    Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Rivera.
    Now I would like to recognize Mr. Payne for 2 minutes for 
an opening statement.
    Mr. Payne. Thank you very much. I appreciate this hearing.
    The title of the hearing could not, in my opinion, be 
further from the truth. In short, Honduras is not under hostage 
and the United States has greatly contributed to Honduras' 
current standing with the international community. The United 
States urged allies in South and Central America to restore 
relations with Honduras and lift the country's suspension from 
the Organization of American States. In fact, on July 1, 2011, 
every OAS member state, with the exception of Ecuador, voted to 
lift Honduras' suspension from the organization. This is a far 
cry from hostage treatment. You must correctly characterize our 
current relationship with Honduras before discussing further 
U.S. policy.
    That being said, our U.S. policy concerning Honduras must 
remain focused on addressing the numerous challenges Honduras 
faces, including the deteriorating human rights climate; First 
Amendment violations, particularly toward journalists and those 
with differing political views; narcotrafficking; and serious 
corruption in the economic sector. Furthermore, Honduras 
currently has inequitable levels that are among the highest in 
the Western Hemisphere.
    I look forward to the hearing and I agree we need to look 
forward rather than back.
    We have a letter I would like to submit, Mr. Chairman, for 
the record sent to Mrs. Clinton and signed by 68 Members of the 
U.S. Congress requesting to look into these allegations.
    Mr. Mack. Without objection. Thank you, Mr. Payne.
    I would now like to introduce our witnesses.
    First, again, on the video screen, the former President of 
Honduras, Roberto Micheletti.
    Before serving as President, Mr. Micheletti was the 
President of Honduras National Congress and has been a deputy 
in Congress since 1982. In January, 2010, President Micheletti 
was granted the status of ``Legislator for Life'' by the 
Honduran Congress. I again appreciate President Micheletti 
being with us.
    Second, we have Ambassador Arcos. I would introduce you, 
but I think the ranking member must have read my notes. He 
introduced you for me. So we appreciate you being here as well, 
Mr. Ambassador.
    I now would like to recognize President Micheletti for 5 
minutes for his testimony and again thank him for joining us 
via video conference. Again, I think it is just flat wrong that 
the United States wouldn't let you come and testify here.
    Mr. Micheletti, you are recognized for 5 minutes.

 STATEMENT OF THE HONORABLE ROBERTO MICHELETTI BAIN (VIA VIDEO 
           CONFERENCE), FORMER PRESIDENT OF HONDURAS

    [The following testimony was delivered via video conference 
and through an interpreter.]
    Mr. Micheletti. Thank you for the chance of allowing me to 
provide my testimony before this honorable committee, giving 
the society of Honduras the chance to speak through me and all 
the Hondurans.
    What happened on June 28 was the arbitrary and illegal 
behavior of President Zelaya. We acted according to our 
legislation. I assumed the Presidency by a mandate of the 
National Congress, a decision which was ratified by the 
Congress 6 months later at the petition of the international 
community. As President, I accepted the commitment of 
protecting the democratic process and guaranteed the electoral 
process which was in jeopardy.
    The elections held on November 29, 2009, where Hondurans 
elected our current President was not backed up by any of the 
international community agencies, nor by the administration of 
the United States of America. It was my administration who made 
the effort to find a solution to this crisis. That is why I 
defended and complied with my commitment to hold free and 
transparent elections.
    Notwithstanding, Zelaya opposed general elections. He made 
a call not to vote and also even to boycott the elections. 
After the election, he requested not to recognize the 
President, Pepe Lobo. Thank God and the effort of the Honduran 
people, the elections were transparent and with extraordinary 
results. There is no dictator or someone who overtakes a 
government who only stays 7 months in government and doesn't go 
against the laws of the Honduran Constitution.
    I feel proud that I defended alongside the Hondurans and 
thank God that I was able to protect the democracy which I 
believe so heartily in. I complied with the oath I took before 
the honorable Congress that I was going to respect the law and 
handle the elections on November 29 to elect a new government, 
a new administration.
    I would like to remember that I am personally and the 
country of Honduras a friend of the United States and I wish 
that this friendship will be held forever and would not be 
destroyed.
    It is ironic that the life to be protected, when he was the 
one promulgating hate between Hondurans and against the United 
States and he was the one who still was carrying and to this 
day promoting hatred among Hondurans.
    Everybody knows that Hugo Chavez is an employee--that 
Zelaya is an employee of Hugo Chavez. He has a salary from Hugo 
Chavez and he is here to promote--he is here to fight against 
democracy. He is promoting the meeting with Sol Pablo which 
promotes the ALBA countries which are against democracy. Zelaya 
has always--he was alongside the socialist dictators of Latin 
America. He received a prize for being with the left of Latin 
American countries.
    I was 1 day before the events of 2-28 with Ambassador 
Llorens in his residence, and we talked about Hugo Chavez, 
Zelaya's closeness with Hugo Chavez, and I informed him 
personally of that relationship.
    I would like to point out something really strong, 
according to my judgment, and to define who is who in Honduras.
    The previous Secretary of State of Zelaya, Patricia Rodas, 
ideologue of the socialist movement, advisor of Zelaya, a 
militant of Sandinista, a political activist of Castro and who 
lived in Cuba for many years, she had meetings with Iranian 
diplomats. That is why in my administration we had immediately 
to cancel visas for people from Iraq, Iran, Libya, and other 
African countries because there was a large flow of these 
people, terrorists, from Venezuela to Nicaragua and they wanted 
to come into Honduras. We are very preoccupied because we know 
Hugo Chavez still has an influence and has power over those 
countries.
    I want to set the record clear. I am going to send several 
documents for your perusal from before, during, and after the 
events of June 28.
    I want to state that I support all of the efforts to have 
reconciliation in this country, but that reconciliation must 
not break our Constitution, not to allow impunity, not to allow 
those who committed crimes against the laws of this country 
walk on the streets free of punishment.
    I want to tell you that we are under the position to 
continue defending the democracy of this country. The last 
favor I am going to ask from you, who are the fathers of 
democracy in this world, to please look out for this democracy, 
these Presidents who come overnight and who intend to stay as 
Presidents, violating the democracy of the people in those 
countries.
    I am gratified that it is the opinion of the majority of 
Hondurans that OAS committed a crime against our country 
because they sent observers to the court, after knowing that it 
was declared illegal. They sent Mr. Insulza, condemned 
Honduras, and gave us 72 hours to bring Zelaya back to the 
country.
    I also want to claim from the United States, of the 
administration----
    Mr. Mack. Mr. President, if I may interrupt for a minute, 
we have kind of a standing time limit here of 5 minutes. We 
have let your statement go for 15. I am thankful for the 
members, but we wanted to accommodate both you and the 
interpreter.
    If you don't mind, Mr. President, I would like to move to 
our second witness and then we will have time for questions. Is 
that okay?
    Mr. Micheletti. Yes. Thank you, sir.
    [The prepared statement of Mr. Micheletti follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

[Note: The unofficial English translation of this statement 
appears in the appendix of this transcript.]
    Mr. Mack. Now I would like to recognize Ambassador Arcos 
for his opening statement and testimony.

  STATEMENT OF THE HONORABLE CRESENCIO S. ARCOS, JR., SENIOR 
  POLITICAL ADVISOR, NATIONAL DEFENSE UNIVERSITY'S CENTER FOR 
    HEMISPHERIC DEFENSE STUDIES (FORMER U.S. AMBASSADOR TO 
                           HONDURAS)

    Mr. Arcos. Thank you, Mr. Chairman, for the kind invitation 
today to address this distinguished body.
    During the last 30 years, I served for 8 years as a U.S. 
diplomat in Honduras. Throughout this period, Honduras has 
taken significant strides to become a modern, democratic 
society. Honduras was, in fact, a loyal and commited friend of 
the U.S. in the final chapter of the Cold War when both Soviet 
and Cuban efforts were successfully thwarted. I must say, 
Honduras was key to this. So I am heartened by the whole fact 
that the OAS has deemed it correct to return Honduras to its 
ranks of the OAS.
    Unfortunately, since the 2009 crisis, Honduras has seen 
organized crime flourish, accompanied by a weakening of the 
rule of law. I would personally like to comment on the Honduran 
legal system.
    If Honduras could manage to successfully apply its laws, it 
would be much easier to attract investment. That is the 
enforcement of contractual rights as well as human rights, 
which are both vital to the rule of law.
    The Honduran justice system is too often found to be flawed 
in its process. Property and investment disputes, like the 
CEMAR case, which Mr. Engel alluded to, continue to illustrate 
how Honduras often lacks the political grit to address the 
complaints of foreign investors. Lacking trust in the Honduran 
justice system, they turn to international arbitration or 
similar credible processes. The justice system plainly lacks 
credibility and trust in the proper application of the law. 
This is the reason why investors do not seek resolution through 
the local judicial system. The legal system plainly does not 
inspire confidence.
    Unfortunately, the current institutional weakness, along 
with the scant political will, encourages impunity. By impunity 
I mean the lack of accountability, which is the greatest 
weakness of the Honduran legal system. Yet there is no 
consensus on how to end it.
    Honduras' laws regulate the state's obligations to execute 
actions to prevent unfair competition and monopolistic 
practices. Different Honduran administrations have either found 
themselves unwilling or unable to apply the law correctly. This 
undermines the rule of law.
    Moreover, it has become commonplace for some to engage in 
predatory pricing with the intent to eliminate foreign 
investment competition. This has encouraged influential groups 
to continue with impunity. It has underscored the government's 
inability to handle investment disputes properly.
    The 1992 Honduran investment law sought to improve the 
country's ability to compete. Its objective was to enact a 
framework for foreign investment with transparency to implement 
good practices and allow for due diligence.
    Though corruption and abuse of power are typified under 
Honduran law as criminal, they continue to hobble business. 
Some U.S. firms have resolved their cases through the Honduran 
courts, nonetheless. Recently, however, I provided advice to a 
foreign investment firm which subsequently was awarded an 
official contract in a true climate of transparency. This was 
most welcomed as a refreshing, positive development.
    There are other factors that cause Honduras' investment 
climate to be hampered. The Honduran Government does not 
customarily publish regulations before they enter into effect. 
The country does not count with a formal mechanism to seek 
public commentary for proposed regulations. To complicate 
matters, Honduras lacks an indexed legal code. That means that 
lawyers and judges themselves have to maintain the index 
publication of laws. While a few U.S. firms have satisfactorily 
navigated through the Honduran court system, the majority have 
serious challenges.
    The current alarming levels of criminal activity, low 
educational levels, and inadequate infrastructure serve to 
exacerbate the investment climate. The Honduran court system's 
opaqueness and slow administration have been underscored as 
primary obstacles for attracting investment. The U.S. has spent 
millions of tax dollars training prosecutorial staff in the 
Honduran justice system. Yet, recently, many U.S.-trained 
prosecutors have found themselves out of a job due to their 
commitment to a fair and equal administration of law.
    The Honduran Government and its private sector must ensure 
that those interested in conducting business in Honduras are 
able to in a transparent environment and given a level playing 
field. We must energetically demand fair treatment of U.S. 
investors.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Arcos follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Mack. Thank you very much. Thank you for your 
testimony.
    I now would like to recognize myself for 5 minutes for 
questions.
    President Micheletti, again, I want to thank you for 
joining us.
    I agree with the sentiment here that we wish we were 
talking about moving forward, but it is hard to move forward 
when the United States Government continues to wrongly punish 
people for doing exactly what it is we would want them to do: 
Stand up for their Constitution; stand up for the rule of law.
    So I ask you this: Do you believe that Ambassador Llorens 
and the State Department are continuing to put pressure or 
punish those who stood up for their Constitution?
    Mr. Micheletti. I am completely sure that there is still 
pressure, especially for Mr. Llorens, trying to put pressure on 
people who participated in defending democracy in this country.
    Mr. Mack. I don't think that it is a secret that this was 
personal to Ambassador Llorens in some way. Instead of acting 
on the behalf of the United States and its diplomatic effort, 
somehow this was personal. This has become personal to him, so 
much so that he visibly gets angry when talk about restoring 
visas comes up.
    Can you tell us a little bit about your dealings with the 
Ambassador?
    Mr. Micheletti. There is an action which I am going to make 
public at this time. Mr. William Holt Micheletti had his visa 
suspended. He is a businessman who has nothing to do with what 
happened on June 28.
    When he went to the U.S. Embassy, he had an interview with 
Mr. Llorens and a consul who was there at that time and they 
told him that they were doing that to put pressure on me so I 
would quit my administration. And like with many other figures 
of this country, they put pressure on me so I would abandon the 
administration, my post as President, and hand it over to 
Zelaya, knowing that Zelaya has no sympathy for the democracy 
of the United States.
    Mr. Mack. Thank you.
    Mr. Ambassador, do you believe that the State Department 
was right in revoking these visas in punishment to government 
officials, business leaders who supported their rule of law and 
their Constitution?
    Mr. Arcos. Mr. Chairman, while I was Ambassador, 
fortunately, I did not have to deal with the sort of arbitrary 
cancellation of visas as we have seen in recent times.
    Let me say this: I think that Mr. Llorens, who in fact 
worked for me at one time, is a dedicated public servant and a 
dedicated U.S. diplomat. I think whatever actions that were 
taken, there was a reflection of larger policy and of the 
policy of the United States at that time, whether we agreed 
with it or not.
    I feel that, first of all, we have to understand this visa 
issuance is somewhat a quandary to most people. There is no 
such thing as a right to a visa. It is very arbitrarily given 
by consular officers to begin with. And I think that now we are 
seeing an arbitrary cancellation not just in this case that you 
are talking about, Honduras, but worldwide.
    It seems to me that it would be useful at one point to have 
perhaps a discussion specifically on the procedures because 
they cause enormous confusion to many people. I feel in this 
case I don't know what process the Embassy used exactly, or the 
State Department, but, clearly, the reflection was one of 
punitive action, I must say.
    Mr. Mack. Thank you, Mr. Ambassador. My time is up.
    By the way, the State Department would not tell us what 
their procedures are. So maybe we will have that hearing.
    I would now like to recognize the ranking member, Mr. 
Engel, for 5 minutes for questions.
    Mr. Engel. Thank you, Mr. Chairman.
    President Micheletti, please correct me if I am wrong, but 
it is my understanding that you supported adding Honduras to 
Chavez's ALBA group of nations; is that true? Did you ever 
support that?
    Mr. Micheletti. We approved the ALBA but with the condition 
of not including the phrase from Chavez of supporting Chavez 
politically and militarily, that aspect of ALBA.
    Mr. Engel. Thank you.
    I am no fan of Zelaya and certainly no fan of Hugo Chavez, 
and I believe that Mr. Lobo is doing a good job. But I also 
believe that our State Department took a middle-of-the-road 
position that I think is proving to be a good position. We 
believed that the elections in Honduras, the elections that 
elected Mr. Lobo, should be respected and approved when other 
countries like Brazil and Argentina were saying no; and I know 
that we exerted a lot of pressure on that.
    So I guess my question is this: When you deal with any 
dispute that went on and nerves are raw and all sides feel that 
they were not treated properly--as I said before, I don't think 
the way Mr. Zelaya was forced out of the country at gunpoint 
was the proper thing to do. I don't think his trying for a 
second term was the proper thing to do.
    But I seem to remember when you were President there were 
negotiations going on to see if a compromise somehow could be 
resolved. I know the OAS and others were trying, and each time 
we would get reports that a compromise was about to be agreed 
to and signed off on, only to have you, the way it appeared to 
me--and correct me if I am wrong--have you back off and not 
support the compromise.
    Today, I hear you say that people who did all of these 
things should not get impunity or anything like that. I know 
people on the other side might say the same thing about you, 
particularly with visas and other things like that. So aren't 
we just better off to try to put the unfortunate events behind 
us and look toward the future? And should we not be 
concentrating on the future for Honduras, not what, 
unfortunately, went on in the past?
    Mr. Micheletti. I feel it is necessary to concentrate on 
the future. At no time have we obstructed the actions of this 
President, current President. To the contrary, we always have 
supported the actions of President Pepe Lobo but with the fear 
of his getting close to Chavez. But we have no fear that 
President Lobo will not change our relation with the United 
States.
    Mr. Engel. Thank you.
    Mr. Ambassador, I am wondering if I can quickly ask you a 
question. As you know, I have been particularly involved with 
the CEMAR case claim in the past several years; and to review 
the facts, it is my understanding that CEMAR was driven out of 
business due to the collusion of two Honduran cement companies, 
one which was controlled by the government. And this case has 
been a serious thorn in the side of U.S.-Honduran relations for 
the last several years and needs to be resolved.
    So let me ask you, how do you think the CEMAR claim should 
be resolved? What are the facts? I think you alluded to it when 
you said that you have to have confidence in the judicial 
system.
    I have spoken with Mr. Cerna, who is the President; and 
when people from Honduras said to me, ``Well, what Mr. Cerna 
has to do is go into our courts and get a judgment on the 
courts and then we can deal with it. We can't deal with it 
since he hasn't gone to the courts.''
    Well, Mr. Cerna--and I hope I am not putting words in his 
mouth, but I know the case very well--doesn't go into the 
courts because he doesn't have any confidence that he is going 
to get a fair hearing in the Honduran courts. And the 
mechanisms that have been set up for him globally to appeal 
would essentially bankrupt him. It is a large corporation to be 
able to afford that and is not for an individual business 
person.
    So what do you think here? What do you think our friends in 
the Government of Honduras should do? After all, they are 
asking for help from us and we want to protect our American 
citizens. We would like to see some help from them.
    Mr. Arcos. Mr. Congressman, let me say that, as I 
understand the facts of the CEMAR case, it predates the current 
administration of Lobo and the one before it, as I understand 
it. So it has been around a while.
    Let me just say that I had a similar problem when I walked 
into the Ambassador's office back in 1989 with a complaint from 
an American investor, and it was a sizeable complaint in terms 
of money. Quite frankly, the Honduran law does not provide for 
an easy process in these sorts of claims, as I understand.
    What I would suggest is that there be a discussion, as 
there was in my time, with the claimant and come to some 
agreement. There was no judicial agreement at that time or 
should I say resolution or an arbitration. There were just some 
discussions that made sense, and they were wisely taken by the 
then administration in Honduras and the U.S. investor. And, 
quite frankly, it worked out. We were able to resolve this 
step-by-step.
    So it can be done, but there has to be some willingness on 
both sides.
    Mr. Engel. Thank you, Mr. Ambassador.
    I just want to add, Mr. Chairman, another 10 seconds.
    This isn't only something that I have been concerned with. 
Congressman Rohrabacher has actually put in a bill to cut U.S. 
aid to Honduras because he is so angry over the way Mr. Cerna 
and others--there are Cortez Byrd and Andreas Kafati and 
others. So this is something that is festering in a bipartisan 
fashion here on Capitol Hill. And I would hope that the 
Honduran Government would settle these cases.
    Thank you. Thank you, Mr. Chairman.
    Mr. Mack. Thank you very much.
    And I now recognize Mr. Rivera for 5 minutes for questions.
    Mr. Rivera. Thank you, Mr. Chairman.
    And I want to share in the sentiments of all my colleagues 
who think it is important to move forward in U.S.-Honduran 
relations, but it is difficult for those bilateral relations to 
move forward as long as this administration keeps trying to 
punish a democratic ally.
    I want to start my questions with Ambassador Arcos. Can you 
give us a little bit of an insight in terms of what your 
opinion is or what you can tell us from your experience for the 
administration's decision of not officially calling what 
happened in Honduras a coup?
    Mr. Arcos. As I understand you, sir, you are asking me if 
it was correct----
    Mr. Rivera. Why you believe the administration would not 
officially say--use that term, ``coup.''
    Mr. Arcos. I should say, fortunately perhaps, I wasn't a 
member of the administration at that time.
    Let me say this. When I was Assistant Secretary of Homeland 
Security, I accompanied the then Attorney General of the United 
States to the inauguration of Mr. Zelaya. And on the eve of his 
inauguration, I was asked to meet privately and basically give 
some advice on how to deal with the then administration, the 
American administration. And I said to Mr. Zelaya--and I 
reminded him after the June 8th events of that, what I said 
then when he--on the eve of his being sworn in.
    I said, you must distance yourself from Mr. Chavez. It is 
not productive. It won't do you any good. Honduras is too close 
to the United States and has been for so many years that that 
optic is not acceptable. You are asking me in terms of 
Washington, and he said yes. And I reminded him afterwards that 
I had told him that three times. So I think that Mr. Zelaya 
knew exactly what he was doing.
    Now, with the interpretation of the State Department in 
terms of why he was removed, why wasn't it called a coup, 
because I think that there was a doubt. I personally think they 
questioned whether the process--I think they were looking for--
the State Department, Mr. Rivera, is subfused with process. We 
used to say, if they don't get you on substance, they get you 
on process.
    So I think that the process was very important to the State 
Department; and I think they looked at the process and 
separated it somewhat from the substance, perhaps. But the fact 
of the matter is they came to the conclusion it was a coup at 
one point. Because of the process, they regurgitated the whole 
process, and I think they came to that conclusion. But I think 
initially they had great doubts.
    Mr. Rivera. President Micheletti, is it true that Assistant 
Secretary Valenzuela has made several trips to Honduras during 
his tenure?
    Mr. Micheletti. I have no personal knowledge. I know that 
he came once or twice through the media, but private trips I 
have no knowledge of that.
    Mr. Rivera. Can you tell me, President Micheletti, in your 
opinion, the suspension of assistance to Honduras in 2009 by 
the United States, can you tell me how you believe that has 
affected the Honduran people?
    Mr. Micheletti. It causes a lot of harm to Hondurans who 
truly believe in democracy. In Honduras, while I was in the 
administration, crime rates went down except for the followers 
of Zelaya and the attempts of President Zelaya and other 
Secretaries of State and Presidents to bring Zelaya illegally 
into Honduras. We feel Honduras has received a very hard blow 
for certain characters from the United States administration.
    I want to read something that is very important which is 
the belief of a--people who were judged, sentenced, and 
condemned Hondurans for their--termination of defending 
democracy. You don't imagine the damage caused and what still 
can happen because--due to unthoughtful and quick actions.
    Fortunately, the Library of Congress of the United States 
of America made a legal study that assures that in Honduras 
there was no coup; and that was good news for Honduras. But 
that did not change the attitude of some members of the U.S. 
administration to the Honduran people.
    Mr. Mack. Thank you, Mr. President.
    Mr. Payne is recognized for 5 minutes for questions.
    Mr. Payne. Thank you very much.
    For us to say that it is unusual that the United States 
breaks relations with a country that has a coup is the practice 
that we have, and I think it is good practice.
    In Africa, Mauritania had a coup d'etat. They didn't even 
put their President out of the country. The United States ended 
assistance, other than humanitarian assistance. They had an MCA 
account and it was doing a great job in the environment. It was 
suspended.
    And so to have people say that it is unusual that 
assistance is cut, that is what we do, to discourage. As a 
matter of fact, the Organization of African Unity even suspends 
its relationship just like the OAU did.
    And I know that there was the talk about this was a 
constitutional issue, that the courts voted on something. Half 
the countries in Africa have constitutional issues between the 
executive and the legislature and so forth. But it is not the 
practice to take people out.
    Now, they say it wasn't a coup; it was maybe following the 
mandate of the General Assembly. The General Assembly didn't 
take the President out, from what I understand. There were 
soldiers with guns and bayonets that drove him to the border 
that said don't come back.
    Now, if it is a duck, it is a duck. A coup d'etat is a coup 
d'etat, regardless of what the court says. When you take a gun 
and tell a person to get out and don't you come back and they 
try to come back, you drop block them at the airport.
    And I think that the new President, Lobo, from what I have 
been given, is trying to do a decent job. He is trying to do 
some good things. I don't know how you--on what scale--you know 
Dante's Inferno had seven levels of purgatory. So I don't know 
where a better job is as relates to what is happening. But I 
think that for us to----
    And visas, I can give you some visa stories. Some countries 
never get a visa because it is a privilege. And in Nigeria, you 
know what you get? About 1 minute to give your case. And they 
just say, go, next, next, next, next because there are so many 
people applying. You have to pay a big fee. And 90 percent, 95 
percent are rejected. It is hard to get in this country today 
because of national security and other things.
    So to make this is a special case--I just maybe ask the 
former President, Micheletti, there was an interest that I have 
had in a medical facility and there was a medical school, the 
first Garifuna people's hospital in Honduras. This is a group 
of doctors who are in the very poor area. They were granted a 
hospital license under President Zelaya's government.
    Since the coup came in--and these are people who serve an 
underserved area. They serve the people of African descent, the 
former Carib, the Carib, and the Arawak Indian people. Since 
the new government came in, the military came in, changed the 
status of the hospital to a medical center, broke in one day 
and said they were looking for arms or something and arrested 
people. Three army patrols on October the 7th broke into the 
hospital.
    And now this hospital that is servicing poor native people, 
people of African descent, these are African descent doctors 
that were fortunate enough to get their education in Cuba 
because that is the only place that gives free education to 
poor people--If you could just quickly--if you know about this 
incident or are familiar with it, could you give me a quick--
since my time has expired--I think you did it on purpose. Well, 
if he gets back on--okay. Thank you.
    Mr. Mack. I now will recognize Mr. Smith for 5 minutes for 
questions.
    Mr. Smith. Thank you very much, Mr. Chairman. Should I 
wait?
    Mr. Mack. Go ahead.
    Mr. Smith. Okay, thank you.
    Ambassador Arcos, thank you for your testimony and I really 
appreciate your insights.
    Let me just ask you--first, I want to associate myself with 
Elliott Engel with regards to Oscar Cerna and his wife and 
their ongoing efforts to get justice and relief from their 
illegally stolen cement factory. And I would encourage the 
Hondurans, with whom I have a great deal of respect for, to 
resolve this and to do so immediately. And I think your 
comments, Ambassador, were right on point. It ought to be done, 
and it ought to be done immediately.
    Secondly, let me just ask you a question, if I could. What 
message regarding the consistency of U.S. foreign policy or the 
lack of it does the Obama administration send to a new 
democracy in the hemisphere and elsewhere in the world when it 
revokes visas to some 14 Supreme Court Justices, key leaders, 
including President Micheletti, and yet bestows huge honors and 
praise, including a steak dinner for Hu Jintao, the unelected 
President of the People's Republic of China?
    President Hu, as we know, is directly responsible for the 
murder of hundreds of Tibetans as the Communist leader back in 
1989. There is no statute of limitations on murder. He was the 
man in charge. He ordered those killings. He also ordered the 
brutality and the use of torture, arbitrary detention, and 
executed many of the Tibetan nuns, as well as the Tibetan 
monks. And yet that helped him rise to power. And now, as we 
all know, he is the President of China.
    Today, Hu Jintao rules with an iron fist over a Gulag 
state; and he and his fellow rights abusers not only get visas, 
he gets a steak dinner.
    What message does that send to people who believe in 
democracy? Mr. Ambassador.
    Mr. Arcos. Thank you, Mr. Congressman.
    Let me say that, having been in the Foreign Service for 
about 27 years, that was clearly a sort of gnawing question we 
had as a career Foreign Service officer, how to explain the 
inconsistencies of policies such as that.
    Well, obviously, foreign policy to the United States 
includes its interests; and, clearly, China is of great 
interest to the United States. Honduras was of great interest 
to the United States when I first served there because of the 
position and our policy of rollback and what have you, as well 
as when the Soviets were in Nicaragua and the Cubans were 
trying to topple the Salvadoran Government. So we had 
interests.
    Unfortunately, I think in foreign policy, we don't have 
consistency in terms of our ethical or moral viewpoint. We 
certainly try to bring in--in every administration it seemed to 
me that I was familiar with--trying to reconcile that problem. 
But it is very difficult because of the larger interests and 
constituencies that we have in this country.
    Having said that, let me say that my own personal opinion 
is I congratulate each and every member of this subcommittee. 
Because, quite frankly, I feel Latin America is left out and 
ignored too often. Not just this administration but in many 
administrations. And, frankly, it is basically given to the 
daily routine of the State Department to have its say.
    It is not really the policymakers at the top involved on a 
daily basis, unfortunately, I would venture to say. We do not 
have energy. We do not have great lobbies for Latin America. We 
don't have the banking interests, the defense industry, or any 
of that, or ethnic lobbies. Because certainly the Hispanic 
lobby or Latino lobby is not very interested in foreign policy, 
from my perspective. But certainly those lobbies, those 
constituencies are missing for Latin America.
    So, consequently, when--even Africa has a very significant 
NGO constituency in this country that is very, very 
significant; and it makes a difference. And I would just say 
that Latin America lacks that. So, consequently, it even gets 
more befuddled, sir.
    Mr. Mack. Thank you very much.
    And going out of order very quickly--and I want to thank 
the gentleman, Mr. Faleomavaega, but Mr. Gallegly is recognized 
for 30 seconds.
    Mr. Gallegly. I would, first of all, thank my good friend, 
Eni Faleomavaega. And I do have a meeting, so I will make my 
question very short and to the point.
    To the President and associating myself with the question 
that Mr. Engel posed to our distinguished Ambassador. While I 
agree that what happened in Honduras in 2009 resulted from the 
arbitrary and unlawful behavior of President Zelaya, I would, 
however, like to ask the President--since I cannot see that he 
has done anything to rectify the problem with U.S. businesses 
operating in Honduras illegally driven from the market or 
illegally losing their investment, specifically companies like 
CEMAR--I would like to know if the President has, in fact, done 
anything to correct this or if he intends to.
    Mr. Mack. Thank you.
    And just to remind you, he is no longer the President. He 
is the former President.
    Mr. Gallegly. While he was President, did he do anything? 
And, if so, if he is aware of any attempts to rectify the 
issue. If during his Presidency----
    Mr. Mack. Yeah, I got it.
    So, President Micheletti, are you familiar with the case 
that the Congressman is talking about?
    Mr. Micheletti. First, to answer the question of 
Congressman Payne about the coup d'etat, here I have in my hand 
a telegram from John F. Kennedy, the President, October 9, 
1963, where he finishes the relationship with Honduras due to a 
coup d'etat and Hondurans--thank God the United States never 
broke the relationship with Honduras.
    In reference to ethnic groups during my administration----
    Mr. Mack. Mr. President, if I may ask you to pause for a 
minute. We had a question about the U.S. cement company in 
Honduras. The question is, while you were President, did any of 
the issues surrounding that cement company come to your 
attention?
    Mr. Micheletti. At no time I remember any American company 
seeking for our help. At this time, I have no recollection of 
such a request.
    Mr. Mack. Okay. Thank you very much. Thank you, Mr. 
President.
    And I would now like to recognize Mr. Faleomavaega for----
    I am sorry. Was there a--which one?
    So if you will finish answering the question about the 
hospital closing down during your administration.
    Mr. Micheletti. To the contrary. We opened the department 
of the government, which was headed by a member of the Garifuna 
community; and I recall giving no instruction to close no 
hospital to the country.
    Mr. Mack. Thank you, Mr. President.
    Now I recognize Mr. Faleomavaega for 5 minutes, and thank 
you for your patience.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    And I do want to say that, in fairness to President 
Micheletti, I hope that he gets the gist of the members' 
concerns about the American businesses that do business in 
Honduras, that they be treated fairly and on an equal basis. I 
think that is the gist of what we are trying to pursue here.
    But, Mr. Chairman, I think there is a deeper issue here 
that you brought to light over the course of this hearing for 
which I really, really think it is a great thing that has been 
brought to the attention of this subcommittee. To the effect 
that it is not Honduras that is in question here, the question 
is the kind of laws that our country has passed when there is a 
military coup.
    And the reason for my suggestion, Mr. Chairman, is that a 
classic example of a military coup that took place was in Chile 
with Pinochet and Allende, with the socialist-Marxist 
government and how that came about and some of the activities 
that took place on the part of our Government when Pinochet 
took over the government in that country for some 14 years.
    And then there is the question of Thailand. There was a 
military coup in Thailand. We also put sanctions and all kinds 
of revocations of visas and everything that we did in that 
country.
    And then there was also Pakistan, also a military coup by 
this fellow named Musharraf who took over the government that 
was duly elected by the people under Musharraf. And for some 10 
years we have had to put up with that because the 
administration put a waiver on the sanctions law that we had 
for those countries that do commit military coups.
    We have the same problem with Fiji. Fiji had four military 
coups, three Constitutions, all within 20 years; and we put 
sanctions on that country and some of the problems we are faced 
with.
    So there is a deeper issue here that I want--and, 
hopefully, Mr. Chairman, that maybe in the coming months that 
we ought to have an oversight hearing on all the series of 
military coups that took place in Latin America. And maybe we 
ought to learn about the inconsistencies.
    And the problem here is that sometimes when we give the 
administration--not just this administration--any 
administration discretionary authority, just like the issue 
that we are discussing here about denying visas for some of 
these people who participated in this coup--what is interesting 
with my friend, Mr. Payne, we are looking at a situation that 
looks like a duck, acts like a duck, quacks like a duck, but 
never clear if it really was a duck to suggest that there ever 
really was a military coup that took place here. And, to this 
day, the administration denies that there was a military coup. 
But in every form and substance of what we have done against 
Honduras, substantively we have really put the stops on the 
ability of some of these officials or former officials of the 
government to come to this country.
    And I just wanted to second what Ambassador Arcos said. You 
are absolutely correct. Latin America--and I want to say that 
this is not anything to you, Mr. Chairman, or our previous 
chairman or Mr. Engel. Both gentlemen have been very proactive 
and very much wanting to participate and to make sure that our 
Government is involved with the affairs of the Western 
Hemisphere, as we should. But we have not done so for all of 
these years, and I know that for a fact as a member of this 
subcommittee for all these years.
    And I am so sorry. I have about 100 questions that I wanted 
to ask, and I only have 1 minute left. But I will want to thank 
Ambassador Arcos for his expressions here. And also, President 
Micheletti, I have one question.
    But I just want to suggest again, Mr. Chairman, it would be 
nice that we hold an oversight hearing about the series of 
military coups that have taken place in Latin America. And 
maybe we need to review more closely the substance of how we 
have gone about putting restrictions on visas and all of this, 
giving it to the administration, if we have been inconsistent 
in doing these things.
    Because Honduras is a classic example of this. We do it for 
some countries, and then we don't do it for others. And after 
spending about $8 billion in helping Musharraf with his 
military coup, where does it put us as far as our foreign 
policy toward Pakistan is concerned? It is nothing but a mess.
    And I wish I had more questions, Mr. Chairman, but thank 
you.
    Mr. Mack. Thank you very much.
    I would now like to recognize Mr. Rohrabacher from 
California for 5 minutes for questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I am sorry that I didn't get here earlier. As usual, we 
have about 20 different things to do at one time here in 
Congress.
    And just one comment about my good friend Mr. Payne's 
description about what happened in the so-called coup. The 
description that my good friend provided left out one important 
factor in terms of escorting the President to the border. And 
the important factor that you left out is the people who were 
escorting him to the border had a court order from the Supreme 
Court and permission from both houses of their legislature and 
was acting totally within the law. Whereas the Supreme Court 
had found that President Zelaya now had taken actions which put 
him in a position of being a threat to democracy for their 
country.
    Mr. Payne. To be escorted out of the country by guns.
    Mr. Rohrabacher. Yeah, by a gun in one hand and a court 
order in the other. Just like in our country, every time the 
police do something, they have a gun, but they also have to 
follow the law.
    Mr. Payne. But not by putting him out to another country.
    Mr. Rohrabacher. Let me just note they were following the 
law in every way in which we follow the law in our country with 
people who have guns.
    And let me just note President Zelaya talked like a would-
be caudillo, and was taking actions like a would-be caudillo, 
and was actually palling around with caudillos like Mr. Chavez. 
And thus, if he acts like a would be caudillo or a want-to-be 
caudillo and talks like one, maybe he should be treated like 
one. Meaning people should worry about whether or not he was 
trying to establish a non-democratic rule of Honduras, which is 
what he had planned and which he was stopped from doing by a 
lawful action that was taken with the approval of the Supreme 
Court of that country and the Parliament of that country.
    So let us just note that I don't think that what we have is 
a coup anywhere near the definition--for example, when Mr. 
Chavez tried to do a coup in Venezuela early on with his 
military fellows and was stopped and thrown into jail, 
certainly what was happening in here was--certainly when Mr. 
Chavez tried to do that, he didn't have a court order. So I 
think that the word ``coup'' does not refer to this type of 
action. Instead, this was an action trying to save democracy, 
rather than to extinguish it.
    One note just for our witnesses and for those people who 
are listening, I would naturally try to come to the defense of 
people who believe in democracy, who are under attack like 
President Lobo is under attack and naturally want to help 
Honduras, but I cannot bring myself to get engaged in helping 
Honduras if they are not doing right by American citizens.
    And when we look at this whole CEMAR Cement Company, that 
is just one example of where American companies have claims and 
these American companies are not being treated with justice. 
And if that continues not only are they going to lose my 
support, but we will ensure that Honduras, no matter who is 
President of that country, does not receive the benefits of 
American largess if they do not follow the law in trying to 
ensure that American companies are treated fairly, justly, and 
within the law. And we have looked at these cases and they are 
not being treated, especially this CEMAR case, which is a 
blatant disregard for the legal rights of an American citizen.
    With that said, I would like to congratulate you, Mr. 
Ambassador and former President. You have both been leaders in 
a very volatile area of the world, and you have both been 
friends with the United States. And, to me, that means I should 
be grateful to you; and I am. So thank you both for 
participating today. And I want to thank the chairman for 
trying to refocus American attention on Latin America and using 
our influence in the right direction.
    Thank you, Mr. Chairman.
    Mr. Mack. Thank you very much, Mr. Rohrabacher.
    And that concludes the hearing.
    I want to end by, first of all, thanking both of our 
witnesses.
    Ambassador, thank you so much.
    Mr. President, again, I consider you to be a hero in Latin 
America for standing up for your Constitution and rule of law. 
No one in their right mind can look at the facts on the ground 
and compare what happened in Honduras to a coup. And so thank 
you for putting up with the State Department's continued 
efforts to try to keep you from speaking to Members of Congress 
in this Congress. And I hope to see you here in the United 
States soon.
    That concludes the hearing. I want to thank all the members 
for their participation, and the subcommittee is adjourned.
    [Whereupon, at 4:44 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   Material submitted for the record by the Honorable Connie Mack, a 
  Representative in Congress from the State of Florida, and chairman, 
                 Subcommittee on the Western Hemisphere
the unofficial english-translated version of mr. micheletti's prepared 
                               statement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

[Note: The Law Library of Congress' Report for Congress, August 2009, 
entitled ``Honduras: Constitutional Law Issues,'' submitted for the 
record, is not reprinted here but is available in committee records.]
                               __________


                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

 Material submitted for the record by the Honorable Donald M. Payne, a 
        Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: Material submitted for the record by the Honorable Roberto 
Micheletti Bain, former President of Honduras, is not reprinted here 
but is available in committee records.]

                                 <all>

</pre></body></html>
